Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




EDICARE PART B ALLOWANCES               FO
     WOUND CARE SUPPLIES




                   JUNE GIBBS BROWN
                    Inspector General

                        JUNE 1998
                      031-03-94-00793
                         OFFICE OF INSPECTOR                   GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through
a nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI’s Philadelphia prepared this report under the direction of Robert A. Vito, Regional Inspector
General and Linda M. Ragone, Deputy Regional Inspector General. Principal OEI staff
included:

REGION                                                  HEADQUARTERS

Nancy J. Molyneaux, Project Leader                      Lisa A. Foley, Program Specialist
Liana Wu, Intern                                        Brian Ritchie, TSS




    To obtain copies of this report, please call the Philadelphia Regional Office at l-800-53 l-9562.
         Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                 EXECUTIVE                        SUMMARY

PURPOSE

This report identifies trends in Medicare Part B allowances for wound care supplies in
1996.

BACKGROUND

Wound care supplies are protective covers or fillers for openings on the body causedby
surgical procedures, wounds, ulcers, or burns. These supplies are covered under Medicare
Part B when they are medically necessaryfor the treatment of surgical or debrided wounds.
Wound care supply claims are processedby the four Durable Medical Equipment Regional
Carriers (DMERCs).

Changes in Medicare Part B CoveragePolicy for Wound Care Supplies

As of March 30, 1994, Medicare expandedits coverageof wound care supplies to include
both primary and secondarydressings. Primary dressingsare coverings applied directly to
wounds or lesions on the skin or wounds causedby an opening to the skin. Secondary
dressings include adhesivetape, roll gauze, and bandages. The 1994 policy also removed
time limits on the coverageof wound care supplies and provided coverageregardless of
type of debridement or what type of health care professional performed the procedure.

On October 1, 1995, the four DMERCs implemented new policies concerning their
coverage of theseproducts. Included in thesepolicies are utilization parametersfor wound
care supplies. In addition, modifiers to the codeswere added to identify the number of
wound sites treated with wound care supplies.

More recently, the Balanced Budget Act of 1997 included a provision which bundles
payment for Part B servicesand supplies provided to beneficiaries covered under a Part A
stay in a skilled nursing facility (SNF) into a per diem payment. Therefore, suppliers can
no longer bill separately for wound care supplies provided to beneficiaries in SNFs whose
stays are covered under Part A. Further, the Act requires servicesprovided to beneficiaries
in nursing facilities not covered under a Part A stay to be billed directly by the nursing
home rather than the supplier. These provisions are to take effect July 1, 1998.

FINDINGS

Medicare Part B allowances for wound care supplies have decreasedby nearly 50 percent.

Allowances for wound care supplies decreasedby nearly 50 percent from $143 million in
1995 to $74 million in 1996.


                                              i
The DMERCs have several measures in place to ident@ and prevent allowances for
claims that exceedtheir guidelines for wound care supplies.

The DMERCs have utilized new policies, edit screens,supplier review and education, and
post-payment audits to identify and prevent allowances for excessiveclaims for wound care
supplies.

Medicare Part B allowances for wound care supplies exceeding DMERC guidelines in
1996 also decreasedsignificantly.

Allowances for wound care supplies exceeding DMERC parametersdropped from $65
million in 1995 to $7 million in 1996, a decreaseof nearly 90 percent.

CONCLUSION

The allowances for wound care supplies have decreaseddramatically. The Health Care
Financing Administration (HCFA) and the DMERCs have taken stepsto identify and
prevent inappropriate payments. Concerted efforts by HCFA, DMERCs, and the Office of
Inspector General (OIG) in the form of policy changes,utilization review, and reports have
contributed to the declines in Medicare allowances documented in this report. The new
policy provided utilization parametersfor many products. The reports made DMERCs and
others concerned with claims processing aware of questionablebilling practices. As a
result, $58 million in excessiveallowances was savedbetween 1995 and 1996. If these
allowances continue to be held in check, 5 year savings of nearly $300 million could be
achieved.

Some claims still exceededDMERC guidelines in 1996. These claims may have been
justified through additional documentation from the supplier which we did not examine. In
addition, once implemented, the changesenactedin the Balanced Budget Act of 1997 may
further reduce allowances for wound care supplies that exceedDMERC guidelines. Part of
the Act changesthe method for reimbursing SNFs. Instead of paying for Part B services
and supplies separately, thesecosts will be bundled into a per diem payment at each facility
for as long as the beneficiary’s stay is covered under Part A. Since a large portion of
allowances (56 percent) for claims exceeding DMERC guidelines were made for
beneficiaries in SNFs, this change in reimbursement methodology could have a significant
 impact on future billing for wound care supplies. However, to ensurethat appropriate per
diem rates are established, excessiveallowances identified in 1995 must be taken into
 account. Another changethat could affect future billing is that claims for medical services
 and supplies, including wound care supplies, will be billed by the nursing facilities
 themselvesrather than individual suppliers.




                                              ii
AGENCY COMMENTS

The HCFA reviewed the draft report and concurred with both our conclusion and the
savings identified. The full text of their comments is in Appendix B.




                                           ...
                                           111
                        TABLE                        OF CONTENTS 



                                                                                                                PAGE
EXECUTIVE SUMMARY

INTRODUCTION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..I      1


FINDINGS         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4 


 l   Dramatic decreasesin allowances for wound care supplies . . . . . . . . . . . . . . . . . . 4 


 l   Stepstaken to identify and prevent excessiveallowances ....................                                          5


 l   Decreasein claims exceeding DMERC guidelines ........................                                                6


CONCLUSION             ................................................                                                   8


APPENDICES

A: Confidence Intervals .........................................                                                      A-l

B: Agency Comments ...........................................                                                         B-l
                          INTRODUCTION

PURPOSE

This report identifies trends in Medicare Part B allowances for wound care supplies in
1996.

BACKGROUND

Wound care supplies are protective covers or fillers for openings on the body causedby
surgical procedures, wounds, ulcers, or burns. These supplies are covered under Medicare
Part B when they are medically necessaryfor the treatment of surgical or debrided wounds.
Wound care supply claims are processedby the four Durable Medical Equipment Regional
Carriers (DMERCs).

Changes in Medicare Part B CoveragePolicy for Wound Care Supplies

As of March 30, 1994, Medicare expandedits coverageof wound care supplies to include
both primary and secondarydressings. Primary dressings are coverings applied directly to
wounds or lesions on the skin or wounds causedby an opening to the skin. Secondary
dressings include adhesivetape, roll gauze, and bandages. The 1994 policy also removed
time limits on the coverageof wound care supplies. In addition, the policy provided
coverage regardlessof type of debridement or what type of health care professional
performed the procedure. Previously, wound care supplies would only be covered if the
procedure was a sharp debridement (e.g., scalpel, laser) and was performed by a physician.
Finally, the policy removed the requirement for suppliers to submit a certificate of medical
necessity.

On October 1, 1995, the four DMERCs implemented new policies concerning their
coverage of theseproducts. Included in thesepolicies are utilization parametersfor wound
care supplies. For example, certain types of supplies should not be billed in excessof one
per day. The guidelines statethat theseparametersmay be exceededif the supplier includes
documentation to substantiatethe claim. The new policy also included modifiers to the
codes to identify the number of wound sites treated with wound care products.

More recently, the Balanced Budget Act of 1997 included a provision which bundles
payment for Part B servicesand supplies provided to beneficiaries covered under a Part A
stay in a skilled nursing facility (SNF) into a per diem payment. Therefore, suppliers can
no longer bill separately for wound care supplies provided to beneficiaries in SNFs whose
stays are covered under Part A. Further, the Act requires servicesprovided to beneficiaries
in nursing facilities not covered under a Part A stay to be billed directly by the nursing
home rather than the supplier. These provisions are to take effect July 1, 1998.



                                              1

Other Office of Inspector General Work

The 1995 report Questionable Medicare Payments for Wound Care Supplies (OEI-03-94-
00790) found that $65 million of the $98 million allowed for wound care supplies between
June 1994 and February 1995 was for questionableclaims. This was one of a series of
reports issued in 1995 concerning Medicare payments for wound care and provided baseline
information on questionable billings which our current inspection will employ for
comparison purposes. Marketing of Wound Care Supplies (OEI-03-94-00791) described
supplier and nursing home practices that can lead to questionable allowances and examined
issuesconcerning Medicare beneficiaries’ use of wound care supplies. Wound Care
Supplies: Operation Restore Trust Data (OEI-03-94-00792) examined questionable billing
practices and supplier and nursing home practices that can lead to questionablebilling in the
five Statestargeted by the anti-fraud initiative known as Operation Restore Trust.

METHODOLOGY

To learn what stepshave been taken to identify and prevent allowances for claims that
exceedDMERC guidelines for wound care supplies, we asked each DMERC to provide us
with information on their policies and proceduresconcerning wound care supplies. We
asked the DMERCs to describe both pre- and post-payment procedures to identify excessive
claims as well as to evaluate the successof those procedures.

To determine both the total amount allowed for wound care supplies and the number of
claims exceeding the DMERC guidelines, we obtained a 1 percent sample of Part B claims
for wound care supplies in 1996. While our calculations of claims exceeding DMERC
guidelines were basedon the 89 percent complete 1996 1 percent file, estimatesof the total
allowances were basedon the complete 1996 file.

Based on 1 percent samplesof Part B claims from 1995 and 1996, we compared the total
allowed for wound care claims in each year. We applied DMERC guidelines implemented
in October 1995 to the 1996 claims to identify excessiveallowances. Specifically, we
looked for claims that exceededDMERC utilization parameters. We compared the 1996
data with the data presentedin our previous report which covered June 1994 through
February 1995. Unlike our previous report, we were able to use new modifiers to
determine the number of wounds being treated in calculating the extent of claims exceeding
the DMERCs’ utilization parameters. However, we did not examine individual claims to
determine if additional documentation was provided by the supplier. As with our previous
report we did not addressclaims for wound care supplies that should not be billed together.

Our analysis of tape overutilization varied considerably from that of our previous work. In
our earlier inspection, we determined the extent of tape overutilization basedon a sample of
beneficiaries with allowances for tape. We then determined the number of inches of tape
that should have been allowed for each bandageand whether the claim exceededthat
amount.


                                             2

For this report, we used the DMERC guidelines on the number of units of tape that could be
billed with certain bandages. Basedon the number of units allowed for each bandageand
the allowed amount for eachunit of tape, we determined which claims had allowances for
tape which exceedthe DMERC parameters.

This study was conducted in accordancewith the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                            3

                                FINDINGS 


MEDICARE PART B ALLOWANCES FOR WOUND CARE SUPPLIES HAVE
DECREASED BY NEARLY 50 PERCENT.

In 1994, $98 million was allowed for wound care supplies. Allowances rose to $143
million in 1995. However, expenditures for wound care supplies have dropped significantly
to $74 million in 1996, a decreaseof nearly 50 percent from 1995. The number of
beneficiaries receiving wound care supplies has also decreasedfrom 269,700 in 1995 to
255,100 in 1996. Average allowances per beneficiary have dropped from $769 in 1994 to
$531 in 1995, and to $290 in 1996; a drop of 45 percent in 1 year. Table A below shows
the extent to which Medicare reimbursement has changedby type of wound care product.

Table A. Changesin Allowances from 1995 to 1996

 WOUND CARE PRODUCT                              TOTAL ALLOWAN




 Transparent Film                         $5.2             $2.6            -49%
 Hydrocolloid Dressings                   $5.6             $7.5           +35%
 Composite Dressings                      $3.8             $1.6            -57%
 Contact Layer                             $2              $0.0           -100%
 Total                                  $143.0            $73.8            -48%
* Percentagesmay be slightly off due to rounding.

Nearly half of the total allowances were made by DMERC C, the DMERC which processes
the most claims. The DMERC C allowed $36 million of the $74 million in total allowances
in 1996. DMERCs A and B had the next highest allowances for wound care supplies, with
$14.5 million each. The DMERC D had the lowest allowances with $9 million.


                                            4

The data for 1997 indicates that allowances for wound care supplies are remaining at or
below 1996 levels. Current data reveals 1997 allowances of $61 million.

MEASURES ARE IN PLACE AT THE DMERCs TO IDENTIFY AND PREVENT
CLAIMS EXCEEDING THEIR GUIDELINES FOR WOUND CARE SUPPLIES.

Edit Screens

All four DMERCs use edit screensto identify claims exceeding their guidelines for at least
some of the wound care supply codes. These screenscapture servicesthat exceedthe
DMERC parametersfor review. One DMERC has edit screensin place for all wound care
codes. The remaining DMERCs have edit screensin place for certain supplies which they
have determined to be vulnerable to abuse. These three DMERCs target five types of
wound care supplies: foam dressings, hydrogel dressings, alginate dressings, hydrocolloid
dressings, and gauze. One DMERC also has a screento capture excessiveclaims for one
type of wound filler.

Flagged Suppliers

Each of the DMERCs also has a system to suspendall of the claims from certain providers
for detailed medical review. According to the DMERCs, some suppliers’ claims were
flagged only for certain supplies. In other cases,all of a supplier’s claims were subject to
review.

Supplier Education

The DMERCs have a variety of approachesfor educating suppliers about their wound care
policies. The DMERCs reported distributing newsletters and bulletins to make suppliers
aware of their policies and guidelines for submitting wound care claims. In addition,
DMERCs conduct supplier seminars. Several DMERCs mentioned providing education for
specific providers, particularly if the supplier has submitted questionableclaims in the past.

Post-payment Audits

Several DMERCs reported conducting post-payment audits to verify that items were
supplied and were medically necessary. If the audit uncovers questionableclaims, the case
is turned over to the DMERC fraud unit. If the DMERCs identify a significant
overpayment to a particular supplier, the supplier may be required to submit to a post-
payment Comprehensive Medical Review.




                                              5

MEDICARE PART B ALLOWANCES FOR WOUND CARE SUPPLIES
EXCEEDING DMERC GUIDELINES IN 1996 ALSO DECREASED
SIGNIFICANTLY.

Allowances for wound care supplies exceeding DMERC parameters dropped from $65
million in 1995 to $7 million in 1996, a decreaseof nearly 90 percent. It should be noted
that DMERC guidelines can be exceededif documentation justifying the claim is provided.
However, we did not review individual claims for such documentation.

Table B below shows the decreasein excessiveallowances for wound care supplies. More
than half of the $7 million allowed for claims exceeding DMERC guidelines in 1996 were
for three types of wound care supplies. Hydrogel dressings, foam dressings, and specialty
absorptive dressingsmade up 58 percent of all allowances for items exceeding the DMERC
guidelines. Of the $7 million in claims exceeding DMERC guidelines, nearly $4 million
was for thesethree types of wound care supplies.

Table B. Allowances for Claims Exceeding DMERC Guidelines by Type of Supply

 WOUND CARE PRODUCT 
               ALLOWANCES FOR CLAIMS EXCEEDING DMERC
                                             GUIDELINES (In Millions)
                                   JUNE 1994-           1996*         PERCENTAGE LESS
                                 FEBRUARY 1995
 Hydrogel Dressings 
                      $24.8            $1.8           -92%
 Tape* 
                                    $9.8            $0.1           -99%
 Gauze 
                                    $7.8            $0.6           -92%




 Contact Layer 

 Total 
                                   $64.5            $6.8           -89%
* 1996 data was basedon the 89 percent complete 1 percent file.
t 1995 and 1996 allowances were calculated using different methods.



    ’ Estimates of allowances for claims exceeding DMERC guidelines were basedon the
   89 percent complete 1 percent file.

                                            6
Nearly 50 percent of all allowances for claims exceeding the DMERC guidelines were
found in five States. These Stateswere Florida, Texas, Illinois, California, and Michigan.
Sixteen percent of the allowances ($1.1 million) were for claims for beneficiaries in
Florida. Three of the Stateswith the most allowances for items exceeding the DMERC
guidelines in 1996 were also part of the group of eight statesthat made up nearly two-thirds
of the questionable billings found in our previous inspection.

Most allowances for claims exceeding the DMERC guidelines for wound care supplies
were for beneficiaries in SNFs or nursing facilities. Nearly 80 percent of excessive
allowances were made for beneficiaries residing in SNFs or nursing facilities. Fifty-six
percent of the allowances for claims exceeding DMERC guidelines were for beneficiaries in
SNFs. Our previous inspection found that 72 percent of such allowances were made for
beneficiaries in SNFs or nursing facilities.




                                              7

                             CONCLUSION

The allowances for wound care supplies have decreaseddramatically. The Health Care
Financing Administration (HCFA) and the DMERCs have taken stepsto identify and
prevent inappropriate payments. Although it appearsthat some allowances for wound care
supplies exceedthe DMERC guidelines, concerted efforts by HCFA, DMERCs, and the
Office of Inspector General in the form of policy changes,utilization review, and reports
have contributed to the declines in Medicare allowances documented in this report. The
new policy provided utilization parametersfor many products. The reports made DMERCs
and others concerned with claims processing aware of questionable billing practices. As a
result, $58 million in excessiveallowances was savedbetween 1995 and 1996. If these
allowances continue to be held in check, 5 year savings of nearly $300 million could be
achieved.

Once implemented, the changesenactedin the Balanced Budget Act of 1997 may further
reduce allowances for wound care supplies that exceedDMERC guidelines. Part of the Act
changesthe method for reimbursing SNFs. Instead of paying for Part B servicesand
supplies separately, thesecosts will be bundled into a per diem payment at each facility for
as long as the beneficiary’s stay is covered under Part A. Since a large portion of
allowances (56 percent) for claims exceeding DMERC guidelines were made for
beneficiaries in SNFs, this change in reimbursement methodology could have a significant
impact on future billing for wound care supplies. However, to ensure that appropriate per
diem rates are establishedexcessiveallowances identified in 1995 must be taken into
account. Another changethat could affect future billing is that claims for medical services
and supplies, including wound care supplies, will be billed by the nursing facilities
themselvesrather than individual suppliers.

AGENCY COMMENTS

The HCFA reviewed the draft report and concurred with both our conclusion and the
savings identified. The full text of their comments is in Appendix B.




                                             8

                                 APPENDIX                       A
                                 CONFIDENCE INTERVALS


We reported our projected totals by multiplying by 100 the point estimatesin our samples.
The point estimatesrepresenttotal allowances. The tables below include columns
containing the confidence intervals for each of the projected totals. All projections were
made at the 95 percent confidence level.

Table 1.

                               TOTAL 1995 AND 1996 ALLOWANCES
                               1995                                  1996
               Projected        Confidence         Projected Total    Confidence
               Total            Interval                              Interval
                $143,248,682     +/- $5,390,705      $74,049,462        +I- $2,634,834

Table 2.




                                             A-l
Table 3.
                          TOTAL 1996ALLOWANCES BY DMERC
                  DMERC                                     1996
                                         ProjectedTotal      Confidence
                                                             Interval
                  DMERC A                  $14,514,813         +I- $1,237,777
                  DMERC B                  $14,581,662         +/- $1,019,319
                  DMERC C                  $36,181,879         +/- $1,919,587
                  DMERC D                      $8,771,112          +/- $750,292

Table 4.

                               EXCESSIVE ALLOWANCES
              JUNE 1994-FEBRUARY 1995                              1996
            Projected       Confidence          Projected Total     Confidence
            Total           Interval
             $63,693,411      +/- $1,494,300




                  EXCESSIVE ALLOWANCES BY WOUND CARE PRODUCT
     WOUND CARE              NE 1994- FEBRUARY 1995
     PRODUCT




                                          A-2 

APPENDIX           B
 AGENCY COMMENTS




       B-l
   DEPARTMENT         OF HEALTH   & HUMAN   SERVICES                  Health Care Financing   Administration



                                                                      The Administrator
                                                                      Washington,    D.C.   20201




DATE:           A?#    291998
TO:          June Gibbs Brown
             Inspector General

FROM:        Nancy-AnnMin         DeParle
             Administrator

SUBJECT:     Office of Inspector General (OIG) Draft Report: “Medicare Part B
             Allowances for Wound Care Supplies,” (OEI-03-94-00793)


We reviewed the above-referenced report which reflects a concerted effort on the part of
the Health Care Financing Administration, Durable Medical Equipment Regional
Carriers, and the Office of Inspector General. We are in agreement with the report
fmdings and savings identified as a result of these activities.

Thank you for the opportunity to review and comment on this report.




                                            B-2
